TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Incurred Costs Audit for Fiscal Year 2000
                     TIRNO-92-C-00014, TIRNO-92-C-0014,
                      TIRNO-99-R-0009, TIRNO-99-D-0001,
                               and TIR-92-0014



                                         September 2005

                             Reference Number: 2005-1C-114




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.




 Web Site          | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             September 12, 2005


 MEMORANDUM FOR DAVID A. GRANT
                DIRECTOR OF PROCUREMENT
                INTERNAL REVENUE SERVICE




 FROM:                           Daniel R. Devlin
                                 Assistant Inspector General for Audit (Headquarters Operations
                                 and Exempt Organizations Programs)

 SUBJECT:                        Incurred Costs Audit for Fiscal Year 2000 TIRNO-92-C-00014,
                                 TIRNO-92-C-0014, TIRNO-99-R-0009, TIRNO-99-D-0001, and
                                 TIR-92-0014 (Audit # 20051C0224)

 The Defense Contract Audit Agency (DCAA) examined the contractor’s August 30, 2001,
 certified final indirect cost proposal and related books and records for reimbursement of Fiscal
 Year 2000 incurred costs. The purpose of the examination was to determine allowability and
 allocability of direct and indirect costs and to recommend Contracting Officer-determined
 indirect cost rates for January 1, 2000, through December 29, 2000. The proposed rates apply
 primarily to the flexibly priced contracts.
 The DCAA considers the contractor’s accounting system to be adequate for accumulation,
 reporting, and billing of costs on Federal Government contracts. However, the DCAA qualified
 its audit report because results of the assist audits for the subcontract costs had not been received.
 The results of the assist audits may disclose additional questioned costs.
 The DCAA stated the contractor’s proposed indirect rates are not acceptable as proposed.
 Claimed direct costs are acceptable and provisionally approved pending final acceptance. The
 cost of money is acceptable as proposed. The DCAA believes the indirect costs questioned in
 this examination are subject to the penalties provided in Federal Acquisition Regulation 42.1


 1
     48 C.F.R. pt 1-53 (2002).
                 Incurred Costs Audit for Fiscal Year 2000 TIRNO-92-C-00014,
                   TIRNO-92-C0014, TIRNO-99-R-0009, TIRNO-99-D-0001, and
                                          TIR-92-0014


Although the audit report is dated September 2002, we did not receive a copy of the report until
July 2005. The Internal Revenue Service (IRS) and the Treasury Inspector General for Tax
Administration (TIGTA) are shown on the DCAA report distribution list; however, neither
agency received the report, even though three IRS-administered contracts were included in the
scope of the DCAA report.
The information in this report should not be used for purposes other than those intended without
prior consultation with the TIGTA regarding their applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright, Director, at
(202) 927-7077.


Attachment




                                                                                                   2
                                    NOTICE:
The Office of Inspector General for Tax Administration has no objection to the release of
this report, at the discretion of the contracting officer, to duly authorized representatives
of the contractor.
The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to the
public.
This report may not be released without the approval of this office, except to an agency
requesting the report for use in negotiating or administering a contract with the
contractor.
